<html>
<title> - U.S. POLICIES TOWARD U.N. PEACEKEEPING: REINFORCING BIPARTISANSHIP AND REGAINING EQUILIBRIUM</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



                U.S. POLICIES TOWARD U.N. PEACEKEEPING:
                     REINFORCING BIPARTISANSHIP AND
                         REGAINING EQUILIBRIUM

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 11, 2000

                               __________

                           Serial No. 106-193

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE
69-979                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT MENENDEZ, New Jersey
CASS BALLENGER, North Carolina       SHERROD BROWN, Ohio
DANA ROHRABACHER, California         CYNTHIA A. McKINNEY, Georgia
DONALD A. MANZULLO, Illinois         ALCEE L. HASTINGS, Florida
EDWARD R. ROYCE, California          PAT DANNER, Missouri
PETER T. KING, New York              EARL F. HILLIARD, Alabama
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MARSHALL ``MARK'' SANFORD, South     ROBERT WEXLER, Florida
    Carolina                         STEVEN R. ROTHMAN, New Jersey
MATT SALMON, Arizona                 JIM DAVIS, Florida
AMO HOUGHTON, New York               EARL POMEROY, North Dakota
TOM CAMPBELL, California             WILLIAM D. DELAHUNT, Massachusetts
JOHN M. McHUGH, New York             GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE RADANOVICH, California        [VACANCY]
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Francis C. Record, Senior Professional Staff Member
                   Shennel A. Nagia, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable John R. Bolton, Senior Vice President, American 
  Enterprise Institute...........................................     4
The Honorable Dennis C. Jett, Dean of the International Center, 
  University of Florida..........................................    10
Edward C. Luck, Executive Director, Center for the Study of 
  International Organizations of the New York University School 
  of Law and the Woodrow Wilson School of Princeton University, 
  President Emeritus, United Nations Association of the United 
  States.........................................................    15

                                APPENDIX

Members' prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from the State of New York, and Chairman, Committee on 
  International Relations........................................    35

Witness' prepared statements:

The Honorable John R. Bolton.....................................    37
The Honorable Dennis C. Jett.....................................    66
Edward C. Luck...................................................    73

 
U.S. POLICIES TOWARD U.N. PEACEKEEPING: REINFORCING BIPARTISANSHIP AND 
                         REGAINING EQUILIBRIUM

                              ----------                              


                      WEDNESDAY, OCTOBER 11, 2000

                  House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:09 a.m. in Room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order. I am 
pleased to welcome our witnesses this morning to this long-
delayed hearing on a review of the Administration's 
peacekeeping policy blueprint and how the Administration has 
applied its policy blueprint for four key U.N. peacekeeping 
operations. We were briefed last week on the long-delayed 
investigation by the General Accounting Office into the 
Presidential Decision Directive number 25, PDD-25. The process 
whereby the U.S. approves U.N. and other multi-lateral peace 
operations and provides timely and relevant information to the 
Congress concerning their implementation. This report was 
requested last year by this Committee on a bipartisan basis and 
follows a number of GAO reports on peacekeeping-related topics 
conducted over the past several years on a timely basis with 
the cooperation of the Administration.
    Today U.N. peacekeeping is facing extremely difficult 
challenges on the ground. The decision by the Indian government 
to pull out its peacekeepers might well lead to a breakdown of 
U.N. peacekeeping efforts in Sierra Leone. The government of 
the Democratic Republic of the Congo has refused to cooperate 
with the U.N. in the deployment of the peacekeeping force in 
that nation. And there are continuing obstacles from the 
Indonesian military and police forces in the ongoing U.N. 
mission in East Timor.
    These developments, in turn, raise key questions about the 
process and how our Nation approves and supports our 
peacekeeping missions. Today, we still have many questions 
about the process whereby the Clinton Administration approved 
these missions. Regrettably, we received a few satisfactory 
responses from the GAO on how the Administration has applied 
its own policy blueprint to the missions now on the ground in 
Africa, in Asia and in Europe. This process was requested on a 
bipartisan basis with our Ranking Member, Mr. Gejdenson.
    The GAO reported to us that it lacks full and independent 
access to agency records needed to be able to complete its 
work. Furthermore, it has no access to key documents that would 
disclose whether this peacekeeping policy blueprint was fully 
taken into account when deciding to support some peacekeeping 
operations. With no independent access to records, the GAO 
feels that the integrity and the reliability of its work has 
been compromised. The GAO investigators have produced an 
extensive summary of their request to the Administration, many 
of which were ignored or denied on very dubious grounds.
    The summary which will be made available later today, 
documents the extensive efforts made by the GAO to acquire the 
documents it needs from the Administration to complete this 
long-delayed investigation. And while the work of the GAO in 
this area is not yet complete, it is becoming more clear that 
the Administration has yet to take a cooperative attitude 
toward the completion of this peacekeeping review by the GAO 
investigators.
    In short, we are still in need of timely and complete 
cooperation from the Administration on this pending review by 
the GAO, and how these operations are approved and conducted. 
And most disappointing of all is the failure of the State 
Department to make available to this Committee the two 
witnesses we had requested for today's hearing. It is my 
understanding that Under Secretary Thomas Pickering and Deputy 
Legal Advisor James Thessin are unable to join us this morning 
to discuss how the department is handling policy and process 
questions relating to the GAO investigation. However, I will be 
asking for their cooperation in arranging a Members-only 
briefing tomorrow to pursue the issues and questions relating 
to the ongoing GAO investigation.
    Today we are fortunate to have with us an outstanding 
private sector panel to review the peacekeeping policy issues 
before our Committee. Today's panel includes the Honorable John 
R. Bolton, Senior Vice President of the American Enterprise 
Institute and former Assistant Secretary of State for 
International Operations; Ambassador Dennis Jett, Dean of the 
International Center for the University of Florida, and former 
ambassador to Mozambique and Peru; and Edward C. Luck Executive 
Director of the Center for the Study of International 
Organizations.
    I am pleased now to recognize our Ranking Minority Member 
the gentleman from Connecticut, Mr. Gejdenson.
    [The prepared statement of Mr. Gilman is available in the 
appendix.]
    Mr. Gejdenson. Mr. Chairman, I think you have to excuse the 
Administration for its caution in dealing with the Congress on 
foreign policy matters. We have now an almost unending 2-year 
assault trying to make foreign policy a partisan political 
battle. We started off with the Republican leadership saying 
they were going to make foreign policy the issue for the 
campaign. We have now had two completely partisan reports from 
Mr. Cox, the last one appropriately titled ``The RAG,'' trying 
to bring the Committee into the presidential campaign. And I 
think for the future good of this Committee and whether it is 
taken seriously in the public, we have to make, I think, a 
stronger effort to prevent the simply partisan assaults on the 
Administration.
    Having said that, I do think that peacekeeping is an 
important area for the United States and this Committee to 
focus on. Frankly, I think all of us need to be embarrassed by 
what seems to be almost a continental divide where we find in 
Europe and some other places of the world, Americans are ready 
to move quickly. In Africa and Asia, it has been hard to 
mobilize the United States Congress or the Administration. In 
Rwanda in a 4-month period, 800,000 men, women and children 
were killed while the western world dithered. When we see what 
is happening today in Sierra Leone, it is an embarrassment to 
societies that call themselves civilized as Sierra Leonean 
children have their limbs hacked from their bodies and their 
faces scarred for life.
    Mr. Royce held a hearing here with a number of victims of 
that violence. It seems to me that we need to find a way to 
help international organizations, most likely the U.N., to 
fulfill its responsibility globally, and that in Africa, we 
have been embarrassed by our failure to act. Peacekeeping is in 
America's national interest. Today we have very few American 
military personnel participating in U.N. peacekeeping 
operations. Less than 40 military are presently serving in 15 
current U.N. peacekeeping operations. We need to take a look at 
the recent report which delineated some of the shortcomings in 
the U.N. And it's peacekeeping efforts.
    The price tag is significant. But the price tag of not 
having peacekeeping is far higher. U.N. peacekeeping operations 
have helped us bring to a close conflicts in El Salvador and 
Guatemala, saving the American taxpayers millions of dollars 
and countless lives in those areas.
    For Congress and the Administration, there is a choice. 
Either we will find a way to establish an international 
peacekeeping force that has a capability to end and prevent 
conflict, or we will spend our days here debating resolutions 
and memorializing those who die.
    It may be understandable that we spent a day here last week 
debating the Armenian Genocide. Those were the failures of a 
past generation, a generation that may have not been informed 
of what was happening in a timely manner. Today, from CNN and 
other news sources, every citizen knows almost immediately when 
ethnic cleansing and murder is brought down on a civilian 
population. And for those of us who think foreign policy is an 
important part of a superpower's responsibilities, we have to 
figure out how to make it a successful effort on every 
continent and not simply allow mass murder to occur in the 
continents that either do not have the political appeal or the 
economic interest immediately at hand.
    Chairman Gilman. Thank you Mr. Gejdenson. Let me just 
address one point that you've raised, Mr. Gejdenson. We do not 
feel it is a partisan attack when we simply asked the State 
Department to cooperate with the GAO and its investigation and 
review, a review that both you and I requested. And 
furthermore, we just want to put the facts about PDD-25 before 
the Congress so that we can examine closely whether or not our 
peacekeeping missions are properly planned.
    Mr. Gejdenson. Mr. Chairman.
    Chairman Gilman. Yes.
    Mr. Gejdenson. Mr. Chairman you will understand the 
confusion in the Administration when there seems to have been 
an almost unending political assault on the Administration's 
foreign policy clearly articulated by the leadership of the 
Republican party here. And again, Mr. Chairman, this is no 
reflection on you. Actually, I don't think you even 
participated in the RAG report led by Mr. Cox or the North 
Korean Advised Group, but for the Administration, viewing what 
happens here on Capitol Hill, it is very easy to come to a 
conclusion that the Republican majority's primary purpose in 
dealing with foreign policy issues is to try to gain political 
advantage and ignoring the old admonition that partisanship 
should end at the water's edge here.
    I think that we are going to have to work--whoever is in 
control of the next Congress, to try to rebuild a sense that 
there is a seriousness to the work of Congress, when it 
involves itself in foreign policy. And again, the two reports 
by Mr. Cox in particular, and the public statements by leaders 
of the Republican party where they said they are going to make 
foreign policy an issue in the campaign, would give any 
Administration pause in dealing with the Congress seriously.
    Chairman Gilman. Mr. Gejdenson. I don't want to belabor the 
point, but if you examine the hearing agenda before the Cox 
Committee, a Committee that consisted of all of the leading 
Chairmen in the Congress, you will find that there were 
bipartisan witnesses, including Mr. Brzezinski, who was a 
national security advisor.
    But I think you will find, if you review the report by the 
Cox Commission, there are serious problems involving corruption 
in Russia. It is not intended to be a partisan attack but an 
attempt to dig into the problems confronting Russia and our 
Administration and what we should or could be doing to improve 
that.
    Mr. Gejdenson. Mr. Chairman.
    Chairman Gilman. Mr. Gejdenson.
    Mr. Gejdenson. Did any Democrats serve on those two Cox 
Commissions?
    Chairman Gilman. The Commission was appointed by the 
Speaker.
    Mr. Gejdenson. And excluded every Democratic Member of 
Congress.
    Chairman Gilman. It did not exclude. He appointed the 
Chairmen of the major Committees in the House.
    Now I think it is time we ought to proceed with our 
testimony. We are pleased to welcome Mr. Bolton back to the 
Committee where he frequently has testified on a wide range of 
foreign policy and security issues. Mr. Bolton is the Senior 
Vice President of the American Enterprise Institute, and he has 
served as an assistant Secretary of State for International 
Organizations and has assisted the attorney general at the 
Department of Justice and is the President of the National 
Policy Forum.

    STATEMENT OF THE HONORABLE JOHN R. BOLTON, SENIOR VICE 
            PRESIDENT, AMERICAN ENTERPRISE INSTITUTE

    Chairman Gilman. Mr. Bolton, you may proceed. And you may 
summarize if you desire, and your full statement will be made 
part of a record.
    Mr. Bolton. Thank you very much Mr. Chairman. It is a 
pleasure to be here today to testify on this important subject, 
and I do have a depressingly long, prepared statement that I 
will try to summarize very briefly.
    Chairman Gilman. If I might interrupt. I am being called to 
another Committee for a few moments. I am going to ask Mr. 
Gillmor if he will preside in my place.
    Thank you.
    Mr. Gillmor. [Presiding) Thank you, Mr. Chairman. You may 
proceed, Mr. Bolton.
    Mr. Bolton. Thank you very much. First I would like to 
spend a minute on PDD-25, the central document defining the 
Administration's U.N. peacekeeping policy. And I think that the 
basic issue with PDD-25, although I laid out some details at 
length in the prepared statement, the central problem with it 
is that it does not really provide policy guidance on 
peacekeeping. It is very general and, in fact, in some cases 
internally contradictory. I think is a good example of the 
notion that sometimes the U.N.'s best friends can be its worst 
enemies. Let me just mention two central conceptual problems 
with PDD-25. The first is it consciously blurs the distinction 
between traditional U.N. peacekeeping operations on the one 
hand with peace enforcement on the other.
    Traditional peacekeeping basically requires three 
prerequisites: the consent of the parties involved in the 
dispute; U.N. neutrality between those parties; and the U.N. 
use of force essentially only in self defense. Peace 
enforcement, by contrast, necessarily contemplates the active 
use of military force by the U.N., or whatever the implementing 
agency is. It is simply not correct, as PDD-25 asserts, that 
there is a spectrum between traditional peacekeeping and peace 
enforcement. There is a very sharp division between them, as 
both military and political experts would confirm. And I think 
that central conceptual problem has lead the Administration 
into a number of difficulties in peacekeeping, some of which I 
will get into when I come to the five specific examples that I 
consider.
    The second major problem with PDD-25 is its stress, indeed 
its emphasis on U.N. involvement in intrastate conflicts, 
conflicts that do not, in my judgment, amount to real threats 
to international peace and security, which is the triggering 
threshold for Security Council involvement in international 
affairs. In fact, this reliance, this emphasis on intrastate 
conflicts, I believe, is simply the continuation of the 
Administration's initial effort, sadly unsuccessful and 
tragically for the United States, in nation-building in 
Somalia.
    The fact is, Mr. Chairman, I believe in flexibility in 
executive branch decision-making, and I think that the 
experience of the five cases that I consider here shows that it 
really is inappropriate to have a one-size-fits-all 
peacekeeping policy, that a reflexive and indeed, discriminate 
resort to U.N. Involvement actually can make matters worse.
    As I say, I have laid out five examples of current U.N. 
operations, current or contemplated U.N. operations, and I 
won't go into details, but I did run through this at some 
length and with citation to publicly-available information to 
make the point that these situations are really quite diverse. 
And let me just consider them quickly in order.
    The first, the contemplated U.N. peacekeeping force in the 
Democrat Republic of the Congo. I think that the history, the 
recent history of the Congo shows going back to the fall of the 
Mobutu and the rise of Laurent Kabila to assume power in that 
country is the complexity of the situation, not only with the 
shifting loyalties in support of Kabila, first from the Tutsi 
minority in the Eastern part of the Congo and now ironically 
from Hutu--in fact Interahamwe forces in that part of the 
country--but the substantial involvement of neighboring 
countries in Africa. This is an extremely complex situation, 
where the Secretary General has recently reported that military 
operations in the Eastern Congo and the preparation for 
military operations continues at a high pace. Now, I do think 
that the Congo represents a situation where there is a clear 
threat to international peace and security. That is to say, I 
think this is at least theoretically a legitimate area for the 
Security Council to be considering.
    But I think that the efforts by the Secretary General, in 
particular, to press for deployment of a peacekeeping force 
could result in a premature deployment that could really be a 
debacle for the United Nations. And it would make the existing 
already confused political situation even worse.
    Indeed, the Secretary General himself has acknowledged this 
recently when he said it is clear that the United Nations 
peacekeeping operations cannot serve as a substitute for the 
political will to achieve a peaceful settlement. Now I think 
this is a situation where U.N. involvement really has a 
substantial risk of the U.N. becoming part of the conflict. And 
I don't think that the Administration has fully appreciated 
this.
    Indeed, in February, Secretary Albright, urging the 
deployment of a peacekeeping force, testified before this 
Committee as follows: ``We are asking for a peacekeeping 
operation there. We believe that it is essential that we 
support that because Congo is not only large, but it is 
surrounded by nine countries.''
    Now, I am not sure I quite follow the logic of that, but it 
has the situation backwards. First there has to be political 
agreement between or among the parties to the conflict which, 
as I previously noted, are many and diverse. Then it would be 
appropriate to consider what kind of peacekeeping Force to 
deploy. I think it really is premature for a U.N. force in the 
Congo and may well be premature for a long time, especially as 
the Lusaka Agreement, the underlying thing that we are 
supposedly looking at here, appears to be in a near-death 
situation.
    Secondly, let me turn to Sierra Leone, where the U.N. is 
already deployed, but where instability in that country for 
nearly 10 years has led to a perhaps equally confused situation 
on the ground. The National Democratic Institute, recently 
issued really quite a good paper on Sierra Leone, where they 
described the origins of the revolutionary united front, Foday 
Sankoh's organization, which has been accused of uncounted 
atrocities. The National Democratic Institute characterized the 
origins of the RUF, and I quote, ``as a rebellion against the 
years of authoritarian one-party state, that had sunk the 
country into poverty and corruption.'' And it noted that 
Sankoh's original platform was ``free education and medical 
care, an end to corruption, nepotism and tribalism.''
    The situation is not only complicated because of the 
internal disputes which I think really left on their own would 
not amount, would not amount to a threat to international peace 
and security, but have been complicated by outside 
intervention, first in the form of ECOWAS, the Economic 
Organization of West African States intervention led by the 
Nigerians. The Nigerians quite obviously, I think, had an 
agenda on their own and ended up participating in the civil 
conflict within Sierra Leone, in effect, as parties to that 
conflict, making it harder to get resolution among the Sierra 
Leonian factions, not easier.
    Second, the Lome agreement of July 1999 which was the basis 
on which the Secretary General recommended deployment of more 
substantial U.N. peacekeeping forces, I think had two essential 
problems with it. The first problem was a problem of the 
Security Council. And I think that this is something quite 
clearly that is the fault of all of the member governments.
    There really was no adequate consideration by the Council 
whether the Lome agreement represented a true meeting of the 
minds among the parties to the Sierra Leonian conflict, thus 
whether there was a consent, and thus whether there was an 
appropriate basis to deploy a peacekeeping force at all. But 
second, I don't think adequate attention has been given to the 
Secretary General's own reservations attached to the Lome 
agreement, where one of the central elements, at least from the 
RUF point of view, was an amnesty for Foday Sankoh and his 
followers.
    Now, I just ask you to think about this for a moment from 
political point of view, without regard to what we think of the 
RUF or without regard to what we think of the Sierra Leonian 
government. I think it is fair to say that the RUF regarded 
that amnesty as a pretty important part of the agreement. And 
yet the Secretary General of the United Nations specifically 
disclaimed interest in upholding that part of the agreement. I 
think it would be reasonable, as a purely political matter, for 
Sankoh to conclude he did not have agreement on what for him 
was an essential element of the Lome agreement. And this 
agreement was backed by the Administration I think for good 
reasons. Assistant Secretary Susan Rice said ``if we want a 
solution in Sierra Leone, that entails by necessity whether or 
not we like it, a peace agreement dealing with the rebels.''
    So if you are willing to follow that logic to undercut it, 
as the Secretary General's reservation does, it seems to me to 
call into question whether you have an agreement at all.
    Now most recently we have what is essentially an 
unprecedented public disagreement between the force commander, 
General Jetley, an Indian and the Nigerian contingent of 
UNAMSIL, resulting in the Indian government's recent 
announcement that, it's going to withdraw all of its 
peacekeeping forces from the country.
    So on the one hand, we have the Secretary General 
recommending the deployment of 20,500 peacekeepers including, 
18 infantry battalions, and yet we find that the peacekeepers 
themselves cannot agree on command and control structures and 
their appropriate responsibilities.
    Let me turn now quickly to the Ethiopia/Eritra conflict. I 
think this is a classic case and perhaps one of the best ones 
that I am going to consider this morning, certainly among the 
three African ones, for the deployment of U.N. peacekeeping 
observers. This is an interstate conflict. It has a ceasefire 
in place. The parties have consented to the deployment of the 
U.N. and I think it is exactly the prototype of what U.N 
peacekeeping should be. And yet, even there the Secretary 
General has recommended not simply the deployment of U.N. 
observers, but the deployment of three battalions of infantry 
to be prepared for a full combat eventuality. I think this is 
part of a larger agenda. Mr. Delahunt is here. We talked about 
this a couple weeks ago in a Subcommittee hearing on the 
Brahimi report recently submitted to the Secretary General.
    I won't cover that ground again, except that I think the 
recommendation, and indeed it has been accepted by the Security 
Council to deploy the three infantry battalions, is a real 
mistake. Quite apart from the extra cost that is involved, I 
think it risks turning what could be a successful peacekeeping 
observation mission into something much more complicated.
    Now, Mr. Chairman, I have also considered in the prepared 
statement two examples, two current examples of U.N. civil 
administration in peacekeeping in Kosovo and East Timor. I 
began that section by discussing why I think the whole concept 
of the U.N. Trusteeship does not have--at least as implemented 
in those two places--does not have support in the U.N. Charter. 
I really do not think there is authority in the Charter for 
this. I don't think the U.N. has experience in this kind of 
activity and I don't think it has capacity.
    So it is perhaps no surprise that in the two concrete 
examples that I consider, Kosovo and East Timor, the U.N. is in 
serious trouble. In the case of Kosovo, very briefly, Mr. 
Chairman, I don't think this is a case of individuals not 
performing up to their capacity. I don't think it is so much a 
question of U.N. mistakes. I think the problem in Kosovo for 
the U.N. is inherent, and that is, they were inserted into a 
situation where the political status of the Kosovo remains 
unresolved.
    That is a problem that continues right to the present 
despite the good news from Belgrade, with the replacement of 
Milosevic by Kostunica. I think if anything, that situation, 
that political situation just got more complicated.
    Many people have said, ``but if you did not have the U.N. 
involved in civil administration of Kosovo, what would the 
alternatives be?'' I have suggested two. One would be to have 
KFOR, the Kosovo force itself, responsible for civil 
administration. I think one of the problems in Kosovo now is 
that we have got, in effect, turf fights among international 
organizations. We have KFOR doing one set of things. We have 
the U.N. Mission in Kosovo, UNMIK doing another set of things. 
We have the OSCE doing another set of things. Then we have 
literally hundreds of nongovernmental organizations also doing 
their own thing. I think it would have been cleaner to have 
considered simply charging KFOR itself with this operation. 
Another alternative, I think less desirable from the U.S. point 
of view, but one which we should have considered, would be to 
have the European Union responsible for this. That would have 
been, I think, much more sensible than the situation we have 
now, where I think with the U.N. civil administration we really 
have the risk of the worst of both worlds, that we have large 
responsibilities and insufficient resources. And I think there 
that the U.N. responsibility in Kosovo is poised at the edge of 
massive failure, failure cause by the ambiguous and 
contradictory nature of its mandate, the inadequacy of the 
U.N.'s capacity to undertake such a mission, the radical 
political uncertainty and sometimes violent disagreement among 
the parties that persists to this very day, and as I said, the 
tension between unmixed aspirations and its resources.
    Finally, the last example, Mr. Chairman, is the U.N. 
Transitional Authority in East Timor which is, in large part, 
shaped by the U.N.'s failure in the earlier conduct of the 
referendum where the violence perpetrated by the anti 
independence, pro-Indonesian militias caused such death and 
destruction after the referendum, where the U.N. itself now 
says ``well, we didn't anticipate there was going to be any 
violence.'' And the Secretary General said ``if we had an 
inkling, it was going to be this chaotic, I don't think anyone 
would have gone forward with the vote. We are no fools.'' And 
yet it is hard to believe that if you've read anything about 
the militias, that they would have taken a vote for 
independence by East Timor lightly, and said ``oh well, I guess 
we lost the vote,'' and went away.
    One thing you can say about the U.N. presence in East Timor 
is that at least the ultimate political future of East Timor is 
clear, that it is going to be an independent state. That is 
obviously unclear in the case of Kosovo where some people want 
independence, and some people quite obviously want it back as 
part of Yugoslavia.
    But I think, even with the political status clear, that the 
United Nations has embarked on a kind of mission that it really 
can't handle. And the Secretary General was quite 
straightforward about what he thinks that mission is. He says, 
in discussing the difficulty, he said ``the organization has 
never before attempted to build and manage a state.''
    I think the performance in East Timor has demonstrated that 
the U.N. cannot build and manage a state, and that the comments 
made by some of the East Timor's independence leaders indicate 
that they are becoming increasingly frustrated. Without 
necessarily endorsing everything, for example, that Jose 
Alexander Gusmao has said, I note that he has argued that the 
East Timorese government could really, logically need to be 
one-fourth the size of the prior Indonesian government. That 
sounds like a man after my own heart, and I wish the U.N. would 
take note of that. I think if you want to build a social 
democratic state, there is an argument for virtually infinite 
U.N. participation. I don't think we should encourage that. I 
don't think that is ultimately best for the people there, and 
it is certainly not within the U.N.'s capability anyway.
    Just to conclude, Mr. Chairman, the U.N., as these examples 
demonstrate, is overextended and in danger of becoming more so. 
It is involved or considering involvement in operations where 
it has neither the competence nor the authority to be 
effective. Now, to be sure, a large part of the blame here is 
due to the member governments, and especially to the United 
States, which have assigned the United Nations contradictory or 
impossible mandates in ambiguous political situations. What we 
sorely need, Mr. Chairman, is sensible American leadership to 
restore U.N. peacekeeping to a more even keel.
    Thank you very much.
    [The prepared statement of Mr. Bolton is available in the 
appendix.]
    Mr. Gillmor. Thank you very much, Mr. Bolton. And we are 
now very pleased to have with us Ambassador David Jett who has 
served as our Ambassador to both Mozambique and Peru. He has 
held numerous important policy positions in the Department of 
State and the National Security Council. He's now the Dean of 
the International Center at the University of Florida. And the 
author of Why Peacekeeping Fails which was published in March 
of this year.
    Ambassador Jett.

      STATEMENT OF THE HONORABLE DENNIS JETT, DEAN OF THE 
       INTERNATIONAL CENTER FOR THE UNIVERSITY OF FLORIDA

    Mr. Jett. Thank you, Mr. Chairman. It is an honor and 
pleasure to be here today to speak on this important topic. I 
will try to summarize my statement that I have submitted for 
the record, and try to do so in a way that doesn't repeat too 
much of what John Bolton just covered. A number of the cases I 
will touch on, but I will try to do so in a little bit 
different way, though I agree with much of what John Bolton has 
said.
    Part of the problem in discussing peacekeeping is you 
immediately get into a problem of definitions. Peacekeeping is 
a term that gets applied to a lot of different situations from 
Cyprus to Somalia, and everywhere in between, where there are 
very different kinds of tasks. The interstate conflicts that 
John Bolton mentioned are the ones that traditionally the U.N. 
had to deal with earlier in its history. And they were easier 
because basically, there was a struggle between two countries 
over territory. The job of the U.N. Was to get between them 
when there was a cease-fire, control the contested territory, 
or at least patrol it, build confidence and allow time for a 
line to be drawn on the map dividing the territory. Sometimes 
that takes quite a long time. They've been in Cyprus since 
1964. The line is still not on the map. But just the absence of 
renewed conflict is enough. Unfortunately, there are very few 
examples of those kinds of conflicts today. Eritrea-Ethopia is 
one, about the only conflict between countries.
    While it has international implications, as long as the 
Eritreans and the Ethiopians were killing each other, nobody 
did anything other than send diplomatic missions to try and 
stop them.
    So even though it was a conflict between two countries, it 
didn't really have the implications for spreading too much 
beyond that particular area and those particular countries. The 
problem the U.N. faces is today's war is typically a civil war, 
a war within a state over political power, and in the third 
world you cannot divide political power very easily. Basically, 
you are either in power or you are out of luck. And when there 
is a peace, the U.N. Is faced with tasks like assembly of 
troops, demobilizing them, reintegrating them into civil 
society, forming a new army and eventually holding elections to 
choose a legitimate leader. All of those are daunting tasks. 
These were the tasks that were attempted in Angola and 
Mozambique. I was an ambassador in Mozambique when the U.N. 
succeeded, so in my book, I look at that and I compare it to 
Angola where those same tasks the U.N. failed.
    When the United States looks at participation in the 
peacekeeping it has three simple options: it can participate in 
the peacekeeping operations with its own troops along with U.N. 
troops; it can allow the U.N. to go in alone without a U.S. 
presence; or it can use its power as a permanent member of the 
Security Council to prevent the U.N. from engaging in a 
peacekeeping operation. I think PDD-25 gives a good framework 
for analyzing the various factors that come into play in 
peacekeeping. The central conclusion of PDD-25 is that when 
properly conceived, a well-executed peacekeeping can be a very 
important and useful tool. That is not a particularly 
remarkable conclusion. The catch is how do you properly 
conceive it and how do you execute it well? The purpose of PDD-
25 was to selectively use peacekeeping and to use it more 
selectively and more effectively. In looking at the history of 
peacekeeping, it sort of ebbed and flowed through six different 
periods. Since the creation in the United Nations, somewhere 
between 5 and 11 years for each period of growth in 
peacekeeping or contraction with an average of 7 years.
    In 1993, we entered a phase of contraction doing less 
peacekeeping, so I think, in that period, PDD-25 caused 
peacekeeping to be used more selectively. And perhaps because 
it was used less, it was done more effectively. But now we seem 
to be entering into a new phase, a growth period, since we are 
about 7 years from 1993. That is probably the half life of a 
bad idea or the institutional memory of your average 
bureaucrat. 1993 is a watershed date because that is the date 
in October when the 18 U.S. servicemen were killed in 
Mogadishu. Ever since then, it has been virtually impossible to 
use Americans in peacekeeping operations with very few 
exceptions.
    I am sure we will listen to the presidential debate 
tonight. I was struck in the first debate when candidate Bush 
said on two occasions that he would allow no U.S. troops to be 
used for nation-building, and he made no apparent attempt to 
hide his disdain for the term. I don't know whether that is an 
applications of the Powell doctrine or his defense strategy is 
based on the idea that we have to be ready to fight two 
regional wars. And the Powell doctrine seems to state that you 
never deploy the U.S. Armed Forces in a size less than an 
division and never outside of Europe, Japan, Korea or a Middle 
Eastern oil producer.
    The problem is there will be very few Desert Storms, I 
doubt there will ever be two, there may not even be one in the 
future. But there will be a lot of Sierra Leones and Somalias 
in the future. So that is what the U.N. has to deal with. 
Nevertheless given the unpopularity of the first option, the 
U.N. can't rely on U.S. participation with troops. We are left 
with the two remaining options, letting the U.N. do it alone or 
doing nothing. The problem with that second option is the U.N. 
does not do it very well. In this regard it is useful to think 
of the U.N. in terms of two different aspects, the U.N. as a 
bureaucracy and the U.N. as organization of 189 member states. 
You've heard the testimony about the Brahimi report. One of the 
things the Brahimi report mentioned was that U.N. bureaucrats 
aren't always of the best quality and that the U.N. should 
become more transparent and become a meritocracy.
    Unfortunately, this flies in the face of longstanding 
tradition, and I don't think it is going to happen. The Brahimi 
report also says that the 189 members should support 
peacekeeping politically, financially and operationally. Well, 
politically, it is difficult because the 189 members are 
typically pursuing their national interests through this 
international organization, and they rarely seem to sacrifice 
them for the common good. Financially, 97 percent of the 
peacekeeping is paid for by the first world for peacekeeping 
operations that all happen in the third world. I doubt, given 
the fact that we are hundreds of millions of dollars in arrears 
now, that there is any particular sentiment iin Washington for 
spending more money on peacekeeping operations.
    Operationally, I have talked about the difficulty of 
engaging American troops. The problem is that is not unique to 
the United States. In general, in the first world, and the 
countries with the best armies but they are the ones that are 
least likely, least enthusiastic about participating in 
peacekeeping. The countries with the worst armies are the ones 
that have them available for these kinds of tasks.
    That said, I think the Brahimi report was a good effort. It 
was at least honest. I think you have to congratulate Secretary 
General Annan. The Rwanda report, the Srebrenica report, the 
report on Angola diamonds and now the Brahimi report, now show 
a remarkable bucking of the long-standing tradition of the 
United Nations to avoid introspection.
    The other thing that the Brahimi report said is that the 
bedrock principals of peacekeeping are consent of the parties, 
impartiality, and the use of force only in self-defense. 
Unfortunately, that almost never exists in today's kinds of 
conflicts. You can imagine if there were a repetition of Rwanda 
and you tried to apply those three bedrock principles, you 
would not get very far. I think the real fault though of the 
Brahimi report or the U.N. in general is that it mentions in 
passing three factors, that are critically important, but 
doesn't suggest any way to deal with those. And part of the 
problem is these are factors that the U.N. can influence but 
can't control. Those three factors are the local actors, the 
internal resources and the external forces.
    The local actors are the people on the ground, the players 
in the conflict who usually see peacekeeping as a way to 
further their own political goals through different means other 
than using military means. And their sincerity in signing the 
peace is usually suspect and it lasts only as long as they are 
not losing power or losing out in the struggle for power. The 
internal resources are diamonds typically. The big difference 
between Angola and Mozambique is that Mozambique has shrimp and 
cashews. And while it makes a nice stew, it doesn't fuel a 
civil war the way diamonds have in Angola or as diamonds have 
in Sierra Leone or in the Congo. And the external forces are 
the neighboring countries. In Sierra Leone the big problem is 
not because the RUF decided it was a corrupt regime in power 
and they were going to overthrow it. You could take Foday 
Sankoh's political philosophy and it wouldn't fill the back of 
a napkin. The real problem is that when the peacekeeping forces 
came into Monrovia and Liberia, west African peacekeeping 
forces, Charles Taylor looked at them as an obstacle to power. 
And I happened to be there at the time in Monrovia and I can 
tell you, the peacekeepers probably didn't even have a street 
map of downtown Monrovia, let alone a clue as to what they were 
going to do. But they did freeze the situation militarily.
    To get back at the Nigerians, Taylor basically inspired the 
unrest in Sierra Leone. He continues to do it today, simply 
because he wants to control Sierra Leone's diamonds. There are 
about $200 million in diamonds exported out of Liberia, a 
country that only produces about $25 million in diamonds. Until 
you control Charles Taylor's greed you will not have peace in 
Sierra Leone. Since the Nigerian peacekeeping force which was 
in Liberia and Sierra Leone for almost all the decade of the 
90's was never able to impose a military solution to the 
conflict, the U.N. should prepare for a long term commitment in 
Sierra Leone.
    In the Congo, you have a situation that is even worse. You 
have the armies of six countries, as John Bolton described, and 
no peace to keep. It is almost a cliche. And so until you 
influence those countries and solve the problem about what to 
do with the people who committed genocide in Rwanda who are now 
fighting in the Congo, then you will probably never have a 
chance for any peacekeeping operation to succeed. As John 
pointed out, there is a proposal to go up to 20,000 U.N. troops 
in Sierra Leone. The Congo is 10 times larger in terms of 
population and 32 times larger than Sierra Leone in terms of 
territory. So you can imagine what kind of peacekeeping force 
you would have to put in there. Another problem is they would 
probably have a muddled mandate, and be just standing around.
    Another example of the way that the U.N. doesn't do a very 
good job on peacekeeping is the one that John Bolton mentioned, 
Eritrea and Ethiopia. There you have a classical peacekeeping 
scenario, a struggle over territory between two countries. It 
is something that the U.N. has done well in the past and could 
do well and probably will do well in this instance, but it 
won't do it very efficiently.
    As John pointed out, there are three battalions, 3,000 of 
the 4,200 troops will be these three infantry battalions. Their 
task is to man checkpoints and to provide security for the 
members of the military coordination commission. That is the 
group that is implementing the peace treaty. I suspect that 
they are providing security to the members of the coordination 
commission, from irate taxpayers, since having 3,000 troops 
stand around will undoubtedly be expensive.
    But I think the reason this was added late, these troops 
into the peacekeeping mix for this particular operation, is 
that bureaucracies tend to ignore problems when they can, and 
when they can't, they tend to overreact and do things that are 
wasteful and inefficient but at least display action, zeal if 
not effectiveness. So when the peacekeepers were attacked in 
Sierra Leone, people got concerned about the security of 
peacekeepers. Therefore these three battalions were added, not 
that they will do anything, not that they will have any 
particular result.
    In that regard, if I could offer an aside, this all sounds 
like the security measures being taken at the State Department. 
I am sure Madeleine Albright will sleep better at night knowing 
that if I return, or any other retired officer misses the food 
in the State Department cafeteria and we drop by for a meal, 
that we will be escorted by a security officer. But I don't 
think that is where the problem is, and I don't think spending 
resources on dealing with that aspect of security is going to 
be particularly effective.
    The third option I mentioned was doing nothing. That is a 
real option but a real problem. Certainly, when you let the 
U.N. do it, there is the possibility of a great deal of waste 
and also the possibility of failure. But to do nothing is 
basically to say, for large parts of the world, there is no 
superpower. We simply don't care enough to do anything and 
whoever is the meanest person or the meanest power in the 
neighborhood is the one that is going to dominate.
    So I think doing nothing is a difficult option and the U.N. 
ought to be pressured to do better. And the U.S. needs to 
carefully evaluate its contribution. I think perhaps more 
military observers--I can recognize the reluctance to deploy 
units of armed forces to these operations. But there is a 
military observer component, those are individual officers who 
play critical roles in making sure that confidence building 
exercises succeed. So that would be one area where the U.S. 
could have a presence with very little exposure, very little 
risk.
    I think there are logistics and intelligence support that 
could be provided without trying to underwrite a major portion 
of the Pentagon's budget by charging the U.N. for these 
services. But I think basically they will all have to lean on 
the U.N. to do better, to do more when it comes to dealing with 
these external factors, or in some cases, to do less. In the 
case of the Congo, I think that is one where basically you just 
walk away from it until you can find a political solution. And 
perhaps you can stop treating Mr. Kabila like the president and 
more like the gangster that he is. The same with Charles 
Taylor.
    In any event, one critical aspect is what we are here to do 
today, and that is, to have a dialog about peacekeeping. I hope 
the Administration will come back to the table. I hope that 
when Congress interacts with the Administration, it is designed 
to evaluate some difficult situations, evaluate some unpleasant 
alternatives, none of which is particularly good and come up 
with what is right for the United States, and not get into a 
partisan game of gotcha. And in that spirit, I am very honored 
and pleased to be here today.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Jett is available in the 
appendix.]
    Chairman Gilman [presiding]. Thank you very much for your 
extensive analysis, Mr. Ambassador Jett, and now we turn to 
Edward C. Luck. We are pleased to have on our panel Mr. Luck, 
the Executive Director of the Center for the Study of 
International Organization and a recognized authority on U.N. 
issues. He has held numerous key positions with the United 
Nations Association and is the author of scores of articles on 
international organizational issues. You may proceed Mr. Luck. 
You may summarize your statement, put the full statement on the 
record or in any manner in which you deem appropriate. Please 
proceed.

STATEMENT OF EDWARD C. LUCK, EXECUTIVE DIRECTOR, CENTER FOR THE 
STUDY OF INTERNATIONAL ORGANIZATIONS OF THE NEW YORK UNIVERSITY 
   SCHOOL OF LAW AND THE WOODROW WILSON SCHOOL OF PRINCETON 
 UNIVERSITY, PRESIDENT EMERITUS, UNITED NATIONS ASSOCIATION OF 
                       THE UNITED STATES

    Mr. Luck. Thank you very much, Mr. Chairman, for that offer 
of flexibility. However, I will exercise uncharacteristic self 
restraint and avoid commenting on the points made by my two 
colleagues on the panel. And I will indeed offer an abbreviated 
version orally of my testimony, and if I could submit the 
written for the record, I would appreciate that.
    Chairman Gilman. Without objection.
    Mr. Luck. Thank you. It is certainly an honor, Mr. 
Chairman, to testify before this distinguished Committee and 
certainly on such a timely and important topic. Over the past 
decade, our nation's support for peacekeeping has resembled 
nothing so much as a roller coaster ride; rising, falling and 
rising again in breathless succession. In the process, we have 
accumulated peacekeeping arrears on the order of $1 billion, 
undermined our credibility as a reformer and a leader in the 
world body, and crippled the U.N.'s ability to do the job right 
in the first place. This hearing will serve our national 
interests well if it calls for two things: one, a bipartisan 
approach that meets the legitimate needs of both Congress and 
the executive branch; and two, an equilibrium between the 
overuse and underuse of this often misapplied and misunderstood 
security tool.
    Mr. Luck. In fact, one of the things I agreed with in 
John's testimony was his reference to needing to keep 
peacekeeping on an even keel. I think that is something we can 
all agree on.
    In terms of the first point, on bipartisanship, Mr. 
Chairman, we would do well to recall that the surest route to a 
strong and affirmative foreign policy is maximizing executive-
legislative cooperation and minimizing partisanship.
    None of us would embrace all of the provisions of PDD-25 or 
the Helms-Biden bill with great enthusiasm, yet they do offer 
the basis for a politically sustainable approach to 
peacekeeping, one that may even permit our nation to speak with 
a single voice in international fora. Of course, that again 
makes me an optimist, but I think it is at least conceivable.
    On the one hand, an overly rigid interpretation of the 
tenets of PDD-25 ensured international inaction in the face of 
unfolding genocide in Rwanda in the spring of 1994. On the 
other hand, the prudence embodied in PDD-25 has encouraged some 
positive steps as well.
    One, command and control arrangements have been clarified.
    Two, greater discipline and selectivity have governed 
Washington's choices about whether peacekeeping is the right 
option and whether the U.N. is the right vehicle.
    Three, full transparency has been introduced into Security 
Council decision-making and into U.N. operations on the ground.
    Four, the Security Council has worked to bring greater 
clarity and specificity to peacekeeping mandates to deal more 
explicitly with the economic motivations to conflict, to bring 
the perpetrators of war crimes to justice, and to undertake 
more on-site inspection tours like the current one in Sierra 
Leone this week.
    Five, sharing the burden, NATO has been given 
responsibility for the largest operations, in Bosnia-
Herzegovina and in Kosovo, and regional actors originally took 
the lead in East Timor, Liberia, and Sierra Leone.
    Six, others are supplying 97 percent of the U.N. forces and 
taking most of the risks.
    And, finally, seven, the executive branch is consulting 
earlier, more frequently, and more fully with Congress and is 
encouraging more congressional visits to field missions.
    I am pleased to see that over the past year legislators on 
both sides of the aisle have supported a series of new or 
expanded missions aimed at either stemming violence in places 
like East Timor, Sierra Leone and the Democratic Republic of 
the Congo or securing internationally recognized borders, as 
between Lebanon and Israel and between Ethiopia and Eritrea. 
There appears to be a growing recognition even in this town 
that while peacekeepers are not miracle workers, and conditions 
often are not propitious for U.N. intervention, there are times 
when peacekeeping offers the best available option. This is 
particularly the case where we share with others an interest in 
seeing a conflict dampened, but our national security interests 
are not so acute as to justify unilateral action.
    Turning to my second theme, regaining equilibrium, it is 
worth recalling that from 1998 to 1994 U.N. peacekeeping 
deployments quadrupled, reaching unprecedented levels. This 
rapid expansion was propelled by the end of the Cold War, the 
changing nature of conflict and the ``CNN effect,'' not, I 
would emphasize, by the predilections of one party or 
Administration. The initial surge, in fact, occurred under the 
Bush Administration, which approved a dozen new U.N. 
peacekeeping operations and several U.N. observer missions.
    At its outset the Clinton Administration maintained this 
momentum, but, with rising concerns on Capitol Hill and 
reverses in the field, it, in fact, led a rapid retreat from 
peacekeeping after 1994.
    By mid-1999, just a little over a year ago, the number of 
deployed peacekeepers had fallen to a post-Cold War low of just 
over 12,000, about one-sixth of the levels in 1994. Today, the 
total number of peacekeepers, including soldiers, observers, 
and police, has grown to a bit under 40,000, of which less than 
900 are Americans, and, of course, many of those Americans are 
police or observers.
    The expansion over the past year has been rapid by any 
standard, tripling in just 12 months, but the current level is 
still only one-half of that of 6 years ago.
    Now, should Members of Congress be concerned that 
peacekeeping is growing out of control? At this point, I would 
say no for several reasons. One, the U.S. and other permanent 
members of the Security Council are monitoring the situation 
and are quite cautious about undertaking new commitments.
    Two, it is generally acknowledged that the growth rates of 
the early 1990's were not sustainable, and there is no desire 
to repeat the mistakes of a decade ago.
    Three, the near debacle in the early stages of the Sierra 
Leone operation this past May rang alarm bells at the U.N. and 
in national capitals about the capacity of the system for 
further growth.
    Four, the Secretary General, sharing the caution of key 
member states--and I would say that the three of us agree on 
this on this panel--has refused early deployment in the Congo 
given uncertain conditions there and doubts about the adequacy 
of the current plans.
    And fifth, as Ambassador Jett has properly noted, the fact 
that the U.N. has commissioned a series of candid assessments 
on Srbrenica, on Rwanda, and by the Brahimi panel is itself an 
encouraging sign of the growing openness to external and 
internal criticism. Each of these reports contained sober 
warnings about again promising more than the U.N. or its member 
states individually are prepared to deliver.
    In assessing U.N. capacity to oversee its peacekeeping 
operations, I would stress that it would be wrong to 
overemphasize the importance of quantitative measures. Capacity 
depends essentially on the willingness of member states to 
provide military, political and financial support for the 
missions they vote for. Qualitative factors--and, again, I 
think the three of us would agree on this--particularly the 
attitudes and motivations of the parties on the ground, usually 
matter more in determining the success of a mission than the 
numbers of blue helmets. Therefore, it is easier and more 
productive to undertake a number of well-conceived and well-
received missions than just a few problematic ones. The key is 
getting the mandate right through stronger staffing, better 
intelligence and analysis, and the employment of prudent worst-
case reasoning in Security Council deliberations.
    In closing, let me offer a few words on how to encourage 
further steps to strengthen U.N. peacekeeping capacity. The 
prospects for achieving further reforms, such as those proposed 
by the Brahimi panel, will depend in part on the maintenance of 
bipartisanship in our national policies. The willingness of 
other member states to go along with the U.S.-backed reform 
proposals and the Helms-Biden benchmarks, including a reduction 
in U.S. assessments, could well be undermined if the U.S. 
approach again becomes subject to strident partisanship, sudden 
fluctuations, and uncertain or inadequate funding.
    Last month's Millennium Summit, including sessions of the 
Security Council and the P-5, reaffirmed the continuing need 
for strong and effective peacekeeping. The world's leaders all 
recognized that peacekeeping is just one tool in our security 
tool kit, which includes conflict prevention, peaceful 
settlement, peace-building and peace enforcement, and, yes, 
John, sometimes nation-building as well, and that the burdens 
should be shared with regional actors wherever possible.
    They acknowledged that a great deal needs to be done before 
the U.N. can even begin to realize its potential as a force for 
peace, and that it is in national capitals and in parliamentary 
hearings such as this that this vital work must begin.
    Thank you, Mr. Chairman, for the opportunity to contribute 
to what hopefully will be a process of reflection and 
reaffirmation. Thank you.
    [The prepared statement of Mr. Luck is available in the 
appendix.]
    Chairman Gilman. Thank you, Mr. Luck, and the entire panel 
for your excellent testimony today. We are very much concerned 
in the Congress that there is proper oversight and proper 
review before engaging in peacekeeping. We are also concerned 
about a report recently issued by the GAO at our request that 
estimated the cost of U.N. peacekeeping for the current U.N. 
budget will be about $2.7 billion, which is something that 
gives a great deal of concern to many of the Members of 
Congress.
    Mr. Bolton, let me address the first question to you. What 
are the chances that the U.N. can effectively implement the 
recommendations of the recent report issued by the former 
Algerian Foreign Minister Mr. Brahimi, and will the 
organizational culture of the U.N. block such an 
implementation?
    Mr. Bolton. Mr. Chairman, I think that the odds of being 
able to implement many of the recommendations of the Brahimi 
report are quite small for a number of reasons, but I think the 
problem with the Brahimi report comes not so much from the 
technical aspects of what that group recommended as from the 
fact that it basically misses the larger point.
    The problems in U.N. peacekeeping are not primarily 
technical in nature. They are primary political in nature. Let 
me just go back to the example of Sierra Leone, because I think 
that is a good illustration of the point.
    The Brahimi report makes a lot of recommendations about 
command and control interoperability, joint training and things 
like that. The dispute that now exists between the Indian force 
commander General Jetley and the Nigerians has nothing to do 
with training, or communication; it has to do with fundamental 
political differences. General Jetley believes the Nigerian 
forces and indeed the Nigerian Government are pursuing their 
own separate agenda in Sierra Leone. The arguments that the 
Nigerians are making go to the fact that they resent being 
controlled by General Jetley and the U.N. as a whole, which to 
me tends to corroborate what General Jetley has been saying 
from the outset. But these are not fundamentally technical 
questions.
    Second, I think the thrust of the Brahimi report--and I did 
elaborate on this in my prepared statement before the 
International Operations Subcommittee--the thrust of what they 
argue would transfer substantial responsibility to the 
Secretariat, on the assumption that you are going to have a 
large increase in U.N. peacekeeping responsibilities of some 
variety. I am not going to argue whether that is good or bad at 
the moment. It just simply assumes that that happens, that it 
has already happened. The Brahimi report vests most of the 
operational functions necessary to carry these new mandates out 
in the Secretariat, in parts of the U.N. that are responsible 
directly to the Secretary General rather than being directly 
responsible to the Security Council. I think that is 
fundamentally wrong.
    I think that even though, obviously, large parts of the 
Charter have never come into operation, as contemplated by 
Chapter 7, if you were to have a continuation and expansion of 
U.N. peacekeeping activity, I think operational responsibility 
for those U.N. operations should be responsible to the members 
of the Security Council, and particularly responsible to the 
five permanent members, whether that is through the Military 
Staff Committee, as the Charter provides, or something else.
    I think the Brahimi report is a conscious and fundamental 
recommendation to shift responsibility from the member 
governments to the Secretariat, and I think that is wrong.
    Chairman Gilman. Mr. Bolton, what are the main deficiencies 
of the Administration's overall implementation of our policy 
toward U.N. peacekeeping as embodied in PDD-25?
    Mr. Bolton. Mr. Chairman, I think the central problem with 
PDD-25 is that it really does not put constraints on what the 
Administration wants to do. And I would have to say here that 
while, as a former executive branch official myself, I am a 
vigorous advocate for flexibility in executive branch decision-
making, I think when the executive announces a policy that it 
intends to follow, it ought to be something that can be debated 
and that the Administration can be judged on. And I think the 
problem with PDD-25 is that fundamentally it is so internally 
contradictory that it does not really provide policy guidance 
at all. I think that is reflected in the recent upsurge in 
Administration support for the peacekeeping activities we have 
been discussing here today.
    I don't think this is a partisan issue, I really do not. I 
know that from times I used to testify before this Committee 
when I was in the executive branch, I know what it is like for 
the Administration to be on that side of the dispute, but would 
argue that the fundamental incoherence of PDD-25 is what causes 
much of the problem in the ongoing disagreements between 
Congress and the executive branch. I think the real impetus 
within the Administration is to be extremely supportive of 
peacekeeping. I think that is why in principle they have been 
as vigorous as they have been, and I do not think that we have 
had a real discussion of where that leads.
    For example, the next big peacekeeping operation, UNGWB, 
the U.N. Gaza-West Bank mission, which I think is something 
that we are going to start hearing about in the near future, I 
think that would be a catastrophe, but I think the Secretary 
General's wheels are already spinning on that.
    Chairman Gilman. Thank you, Mr. Bolton.
    Mr. Jett, Ambassador Jett, I am going to ask you the same 
question I have asked. What are the chances the U.N. can 
effectively implement the recommendations of the recent report 
of the former Algerian Foreign Minister Mr. Brahimi?
    Mr. Jett. I think, Mr. Chairman, it will be able to make 
some of the changes. Some of the organizational changes are 
possible. I think changing the basic character of the 
institution is probably not possible, but for me I don't think 
it matters all that much whether the changes are made if the 
U.N. continues to ignore the other factors that I mentioned, 
the factors like a country's resources, whether the diamonds 
are fueling the civil war, what role the neighboring states are 
playing, what role the politicians within the country are 
playing.
    Until you attempt to influence those factors, you can have 
the best peacekeepers in the world and put as many of them as 
you want into a situation, but if the local actors are 
determined to fight, if there are diamonds there to fuel their 
arms purchases, if the neighboring countries are all involved 
either for profit or for other reasons, then you have got a 
hopeless situation, and peacekeeping will not succeed.
    Chairman Gilman. Thank you. And my time--I am overstaying 
my time here, and just, Mr. Jett, would you comment on the same 
question, the Brahimi report, Mr.--Mr. Luck, would you be able 
to tell us whether that report issued by Mr. Brahimi, what are 
the chances it can be effectively implemented?
    Mr. Luck. Yes, I would be happy to.
    There are a number of aspects. I agree that some parts 
would be difficult to implement. There is one very important 
provision that I think is utterly implementable, in some ways 
is already happening. That is the Secretary General and the 
Secretariat ought to be able to tell the member states in the 
Security Council when the mission is not implementable, when 
the plans are not sensible. And that, in fact, is what has 
happened in the case of the Democratic Republic of Congo. The 
Secretariat has said, no, let's slow this down. We are not 
ready to go forward. These plans simply do not make sense. And 
I think that is very refreshing and is very much needed.
    Second of all, there are a number of things that individual 
member states can do if they want to in terms of stand-by 
sources and interoperability and other things. And the 
initiative is up to the individual member states, not up to the 
Secretariat, although the Secretary General has been 
encouraging such steps for many, many years.
    There are some dollar signs attached to the Brahimi report, 
and a lot of what they recommend is a bolstering of the 
Secretariat capability, and that would cost money, and that may 
not be a popular thing in this town, particularly with our 
arrears in peacekeeping being so large.
    Finally, I would say that much of the report reads really 
as a wakeup call to the member states, telling them to get 
serious about this if they want positive results. And that, I 
think, is something which is utterly implementable, but 
unfortunately the track record has been quite lamentable in 
terms of most member states.
    Chairman Gilman. I regret I am going to have to go on to 
another hearing. I am going to ask Mr. Bereuter to conduct the 
balance of the hearing.
    And Mr. Delahunt is recognized.
    Mr. Delahunt. Thank you, Mr. Chairman.
    I agree with some statements by Mr. Bolton, interestingly. 
I would direct my questions to Mr. Luck.
    You indicated earlier in broad terms that these issues are 
very complex, and there are no simple answers, and that 
flexibility is essential, and that the idea or the concept that 
there is a one-size-fits-all approach is just simply 
unworkable.
    My own sense is that each of these cases, I would suggest 
that the only true measurement in terms of potential success 
and in terms of what should be done is the adequacy of that 
particular plan and whether, after careful and thorough review, 
there is a level of expectations of success that meet the 
requirements. Any comment?
    Mr. Luck. Yes, I would be happy to. And actually I did 
agree with a number of things that John said, but we have done 
this back and forth so many times, we have to kid each other a 
little bit.
    But I certainly agree with his point about one size fits 
all. I would say, though, that if you look at the last 5 or 6 
years, there, in fact, has been a lot of flexibility both on 
the part of the Administration and on the part of the U.N. The 
approach has been different, really, in one case after another. 
We see cases where NATO has taken the lead in Bosnia-
Herzegovina and Kosovo. We see places where an individual 
member state, in the case of Australia, takes the lead in East 
Timor, and others follow where there is no strong regional 
organization. And we have seen the up-and-down effort by ECOWAS 
and others to try to resolve problems in Liberia and Sierra 
Leone. So I think we have seen a lot of flexibility on this.
    Again, what matters in the end is whether the parties to 
the conflict are at all amenable to a reasonable solution. If 
they are, then the international community can be very helpful. 
But it is very, very difficult to impose that. Ambassador Jett 
mentioned his experience in Mozambique, where the people really 
ran with it, and it was a considerable success, and as he 
pointed out----
    Mr. Delahunt. But I think that underscores my point about 
individual cases and conditions and the analysis and evaluation 
of conditions and circumstances in a particular situation. And 
if there is a certain clarity, whether it is the United Nations 
or whether there is an alternative response available, that, in 
my opinion, ought to be the measurement of particularly United 
States engagement, United States involvement.
    Mr. Luck. I think there is a sense by many other member 
states that the U.S. and Congress in particular are 
fundamentally allergic to peacekeeping and fundamentally 
allergic to involvement. It is a political feeling as much as 
anything else----
    Mr. Delahunt. I think there is a certain validity to that 
sentiment, because I think we find ourselves in a conundrum. We 
have the GAO report. The Chairman indicated that there are a 
lot of Members concerned about a $2.7 billion financing of 
peacekeeping. Yet I think it was your term, unless our national 
interests are particularly acute, i.e., oil or some other 
something else that fits the description of acute, we do not 
want to make a commitment of American troops.
    So there is a utilization, I do not want to call it a 
manipulation, of the United Nations to do the dirty work--and I 
think the most clear case is Rwanda. I mean, what do we do in a 
situation intrastate like Rwanda where there is a genocide that 
is occurring, where 800,000 people are being slaughtered? Do we 
do nothing? Do we take the third option? I think maybe that was 
Ambassador Jett's--what do we do? Is that an option that is 
available to a civilized superpower?
    Mr. Luck. If I could just make one a little comment on 
that, it seems to me that there is a tendency very often to say 
that we either have national interests or we don't have 
national interests. Like a light switch, it is either on or off 
when most of these cases are shades of gray. We have some 
interests, and I think upholding international human rights and 
humanitarian standards and preventing genocide are part of our 
fundamental national values. But we have to sort of calibrate 
this and not say we have zero interest or total interest----
    Mr. Delahunt. I do not disagree, and the reason why I 
utilized the Rwanda case is I think there is a degree there, 
there is a level of atrocities or crimes against humanity that 
are committed that almost compels something to happen. What do 
we do? What do we do, Mr. Bolton, in the case of Rwanda?
    Mr. Bolton. Well, to take the specifics of Rwanda, it seems 
to me that the cold, cruel fact is there is very little that we 
are able to do. And I think that while there is certainly a 
moral outrage that everybody feels watching what happened 
there, there are moral obligations that the President of the 
United States has as well for the protection of American life.
    Mr. Delahunt. Can I ask you this question? What would have 
been--this is hypothetical, obviously--in terms of intervention 
by the United States in a lead role in Rwanda to save 800,000 
lives, what would have been our exposure even just simply to 
freeze the situation?
    Chairman Gilman. The time of the gentleman has expired, but 
I want him to have the leeway, so please proceed with your 
response.
    Mr. Bolton. I don't think it is possible at this removed 
date to calculate what the risk to Americans or others who 
might have taken part in such an intervention would be. But I 
think that the decision-maker, in this case the President, has 
an obligation, has a moral obligation to be able to justify 
what interest it is of ours that permits him, or compels him if 
you will, to put American troops in a situation where we could 
be pretty sure that some substantial number were going to be 
killed or wounded.
    And I think if I could refer to the example of Somalia, it 
was the feeling in Congress, after the deaths of the 18 Rangers 
in Mogadishu, on a bipartisan basis really, that the 
Administration was not able to explain why they had died. It 
was not a case where Congress said ``18 dead Americans is too 
many.'' It was a case where Congress said ``18 dead Americans 
for no reason is too many.''
    Mr. Delahunt. I guess what I am saying, Mr. Bolton--if I 
could have another additional minute or so, Mr. Chairman?
    Chairman Gilman. The gentleman is recognized for an 
additional minute without objection.
    Mr. Delahunt. In the case of Rwanda, it is my memory that 
there was substantial information and available data that 
indicated that hundreds of thousands of people were being 
slaughtered. If that in and of itself is not sufficient 
rationale for action to be taken, hopefully multilateral, for 
some sort of intervention to prevent that from happening, where 
are we? Where have we come?
    Mr. Bolton. Well, I think in that sense it would be 
extremely helpful to hear the debate within the Administration. 
Secretary of State Albright has said publicly now that although 
she cast the U.S. votes in the Security Council while the 
Rwanda situation was unfolding, that she did so under 
instructions and in protest.
    Mr. Delahunt. What is your opinion, Mr. Bolton; where would 
you be in that situation in that--I am not sure I have all the 
facts available to me, so acknowledging that, do you agree with 
me in terms of my conclusion that, if there is anything that 
should be a vital interest of the United States, it is the 
calculation that we do have the capacity to stop a genocide of 
hundreds of thousands of people, and there is some sort of 
moral obligation on the part of this country to prevent that 
from happening.
    Mr. Bolton. I think it was very hard to see at the time and 
to predict what the extent of it was going to be. What went 
through the Administration's mind, I cannot say. But I can say 
that looking at decision-making in Washington and in London, 
and in the other capitals of the five permanent members of the 
Security Council, that it was not simply in Washington that 
there was no desire to be involved. Quite the contrary. In the 
case of France, I think there was active involvement on the 
other side.
    So while in retrospect the moral question looked clear at 
the time, I think it is a lot more complicated. And I am not 
defending the Administration's position. I do not know what I 
would have done in those circumstances. But I think it is a 
mistake simply to say that there is a moral obligation on the 
part of the United States that triggers an unlimited, 
immeasurable commitment of American blood.
    Mr. Bereuter. [Presiding.] The time of the gentleman has 
expired.
    The Chair recognizes himself under the normal order.
    Gentlemen, thank you very much for your testimony.
    Mr. Luck, there is an allergy about the use of peacekeeping 
forces of the United States abroad, and it relates, I think, to 
very bad decisions by Secretary of Defense Les Aspin and those 
around him in terms of what happened in Mogadishu. Let's be 
blunt. The Defense Department ignored the requests of the field 
commanders for additional resources that caused us to be unable 
to respond. The United Nations got the blame, in large part 
without cause, for what happened there. And, the U.N. got the 
blame because the Congress was bypassed with respect to 
peacekeeping operations in Bosnia, and because the best advice 
of Congress was ignored in the case of Kosovo.
    Ambassador Jett, you have two points I want to follow up on 
in your testimony. First, your comments about the impact of 
patronage on the leadership necessary at the United Nations to 
lead 28,000 peacekeepers with only 32 officers in New York. The 
developing countries or less developed countries object because 
those officers in New York are primarily from developed country 
military as you put it. What do we do about that situation? Do 
we persist and say, okay, that is where the leadership comes 
from, and we simply have to have greater capacity there even if 
it comes mostly from developed countries? What do we do with 
what I think is a real problem that you point out?
    Mr. Jett. Well, Mr. Chairman, I do not have an easy 
solution to that problem either, but I think we have to be 
fairly insistent. The gratis personnel were offered--I think 
some of them were there, and then this objection came from 
people who saw those as plum jobs to be had for their people.
    The Brahimi report it talks about changing the culture of 
the organization. That is one of the ways that the culture of 
the organization has to be changed.
    There is this attitude that peacekeeping is something 
somebody else pays for, when 97 percent of it is paid for by 
the First World, and so it is a cost-free exercise for 
everybody else, and, in fact, may result in a few jobs. So that 
kind of attitude needs to change. I am not sure it will, but I 
think we should be insistent that it does.
    Mr. Bereuter. You also point out in your paper that you 
believe the U.S. should push the U.N. to look beyond internal 
reforms to control those external factors that prevent 
successful peacekeeping. Can you give me an example of what you 
mean there, please?
    Mr. Jett. Yes, sir. Again, those external factors are the 
local actors in the conflict, the country's resources and the 
country's external forces or neighbors usually. In the case of 
the Congo, you have the armies of six countries involved, some 
for--like Rwanda, because they are not going to stand by and 
see the people who committed genocide be given safe haven in 
the Congo. You have other countries like Zimbabwe involved 
because the President there supposedly is making a profit off 
diamond concessions. So you have all of those countries 
involved for various interests, generally playing an unhelpful 
role.
    You have Mr. Kabila, who is as irresponsible a leader as 
one could find these days, who seems ready to pay any price as 
long as it is not his hold on power. Yet he comes to New York, 
and he is feted and treated like a world leader. And then you 
have the diamonds in the Congo that are again being used to 
fuel the conflict. You have got diamonds in Angola which the 
U.N. has attempted to control, but did not do very well at. One 
of the reports that Secretary General Annan has had come out 
recently is showing up how porous the sanctions against Angola 
were, and it named names. It named the President of Burkina 
Faso as taking an envelope of diamonds to allow fuel and 
weapons to go into Savimbi's territory and diamonds to go out.
    Yet but what happens when they were confronted with that 
evidence? The U.N. appointed a commission to study the 
question. So you have got to connect with some enforcement.
    Chairman Gilman. Thank you. I appreciate those examples.
    I do want to fit in one more question for any and all of 
you. I would like to know what you think about PDD-25 or about 
American foreign policy with respect to our role as a world 
leader to try to motivate other countries to take an 
appropriate role.
    For example, in the case of Rwanda, what was the 
responsibility of the European countries, because of the 
colonial heritage that they left, because of closer association 
with the situation in Rwanda, to act? Was what happened in East 
Timor with the Australians stepping forward to take a very 
important leadership role something that we should suggest 
should happen in Africa and other places as part of our world 
responsibility for leadership? To what extent do we have a 
responsibility to motivate other countries to take the lead for 
peacekeeping activities?
    Mr. Bolton. Perhaps I could take a quick shot at that. I 
think that it is pretty clear that particularly in those areas 
where the United States has only the slightest interest, that 
it is important that others who feel that their circumstances 
are more directly threatened do have a larger role. But I also 
think we have to acknowledge, and I think the case of Sierra 
Leone is a good example, that the regional powers can have 
interests as well, and that their interests may fall on one or 
another side of a conflict like that. So that in the case of 
Indonesia, where the prior role of the Australians in 
supporting the Indonesian takeover, the military takeover, or 
where the Portuguese role has long been seen as unhelpful by 
the Indonesians, that ultimately these things cannot be just 
devolved to the regional organizations.
    The real issue is what the United Nations--from the 
American point of view--what the United Nations can do. It has 
to be very carefully limited. And I think part of the problem 
is member governments too readily throwing something into the 
United Nations' lap without knowing what the consequences are 
going to be. I think the referendum in East Timor is a good 
example of that. I think everybody said, ``let's have the 
referendum,'' without thinking through what the militias would 
do, what the consequences of that would be, and what would 
follow from it.
    So I want to be clear. I do assign a major part of the 
responsibility here to the member governments, including the 
United States, for not being clear in what they are asking the 
U.N. to do.
    Chairman Gilman. I want to give these gentlemen a chance to 
respond to this. Mr. Luck, I noticed you had your hand up.
    Mr. Luck. It is a very interesting question. From the 
outside, PDD-25 looks like a treaty between Congress and the 
executive branch. It looks like it is primarily dealing with 
consultations, relationships, prerogatives between the two 
branches of government.
    And I think what many countries see when they look at it, 
and see in addition the Helms-Biden legislation, is, one, an 
inability of the U.S. to speak with a single voice, and that, I 
think, undermines a lot of this. They feel the Administration 
will say one thing, and Congress will undercut it, and the 
Administration is not able to deliver the money, is not able to 
deliver Congress. And that, I think, is a very serious problem.
    And I would point out that in the Helms-Biden legislation, 
there is a provision saying that if any country--if any of the 
189 member states--signs an article 43 agreement with the U.N., 
which is part of the U.S. Charter, for standby forces, then the 
arrearage will not be paid.
    So this is extraterritoriality writ large. We are not only 
saying we do not want to have any standby forces for this kind 
of contingency, we say no one should have these kinds of 
arrangements with the U.N. In that sense I think we are 
extending ourselves a little far, and that is not the kind of 
leadership role that we ought to be playing.
    Mr. Bereuter. That is the kind of issue of sovereignty that 
some European countries do not share with us, as we do in the 
United States, the loss of sovereignty to the United Nations.
    The gentleman from New Jersey? Unless the Ambassador has a 
comment.
    Mr. Jett. Just one comment. I think you are right. I think 
we do need to encourage other countries to take the lead. 
Peacekeeping operations work best when there is a First World 
country taking the lead, or NATO in the case of Kosovo, Bosnia. 
In the case of East Timor, the Australians took the lead, 
because they saw it in their vital national interest to do so 
and committed somewhere between one-half and a quarter of their 
army, navy, and air force to the initial operation, and it was 
very successful. Whether it succeeds in the longer term depends 
on the Indonesian military and whether they will stop 
supporting the militias.
    Chairman Gilman. Thank you, Ambassador.
    The gentleman from New Jersey Mr. Payne is recognized.
    Mr. Payne. Thank you very much. And I thank the gentlemen 
for their very important testimony.
    I tend to agree with the line of questioning that Mr. 
Delahunt started with regarding the appropriateness of when we 
do intervene. I guess that is going to be the question in the 
future. When is it right, I guess, for us to become involved? 
And that is going to be a very difficult question to answer in 
light of what we have seen in the past.
    I agree that the Rwanda situation--I tend to disagree--one 
of the answers that was we don't know what the loss of life 
would have been if we had intervened militarily, say, the 
Western countries or the U.S.-led forces. It would appear to me 
if a group of exiles in Uganda, the RPF, not even a real army 
per se, but people who had been refugees from Rwanda could have 
come down to Rwanda and defeated the entire militia--not 
militias, but the entire army of Rwanda and had them eventually 
go--with protection of the French go into Goma, it would appear 
to me that if sort of an unorganized group could have routed an 
entire military, then I think we are disingenuous and really 
have a low opinion of our military if we question what the 
result would have been if they were U.S. Rangers or Green 
Beret. I think that it would have probably have been an 
operation that would have seen virtually no casualties in that 
particular situation.
    The other example, we are dealing with Charles Taylor, and 
it seems that it has been proven that he is involved with the 
rogue state and their leaders in Sierra Leone, but once again, 
when Doe, who was the military dictator, was held up in 
Monrovia, that there was an expectation that the marines were 
just going to come in and take him out. That would have ended 
the whole situation. Once again it has been calculated that 
there would have been no opposition to the U.S. military. As a 
matter of fact, it was expected that the marines would have 
gone in. That is why he stayed in Monrovia and did not leave, 
because they just assumed that that would have happened. But, 
of course, at the same time we had the Persian Gulf situation, 
and the Administration at that time, the Bush Administration, 
felt that we shouldn't get involved.
    So I do think that we have really an instance where there, 
in my opinion, should have been involvement on the part of our 
Administration. There was none, and I think that it is perhaps 
a trend for the future, which I do not see being in the best 
interest of stability around the world.
    I just have a question in regard to Sierra Leone with the 
Indian officer in charge resigning or withdrawing and Nigerians 
feeling that they should have the command. Could any of you 
comment? What do you think should be--if the fact that Nigeria 
is going to have and has had the largest number of peacemakers 
attempting to make peace, that is it out of line for them to 
feel that they should have control and command, or do you think 
that there is other reasons why that is being requested?
    Mr. Bolton. Perhaps I could give a brief answer to that. It 
seems to me there is the question of the Nigerian role, going 
to the implications for peace and stability in Sierra Leone, to 
have a country that has--and I am not being critical here, but 
that has had a prior role, in this case the restoration of the 
Kabbah government, and has in effect been deemed by the RUF to 
have taken sides. Again not being critical--I am just asking as 
a matter of basic political perception, whether you want a 
government like that substantially involved in the follow-on 
U.N. peacekeeping force that at least in the first instance was 
supposed to be neutral among the parties implementing the Lome 
Agreement.
    The example that occurs to me, thinking about that, was in 
Somalia when Mohammed Farah Aideed saw the Pakistani battalion 
land in Mogadishu and immediately make a deal with the Hawadle 
subclan to provide them security at the Mogadishu airport. 
Aideed concluded that the U.N. had sided with his enemies, and 
from that relatively simple misperception, the involvement of 
one small subclan, affected Aideed's view about the subsequent 
U.N. deployment, which I think was not the only, but a major 
contributing factor to the ongoing problems we had in Somalia.
    I think there is an argument in the case of Sierra Leone, 
given the ECOMOG role and the leading Nigerian role in it, that 
a truly neutral U.N. peacekeeping force, which was what was 
envisioned under the Lome agreement, should not have included 
participation by forces in the prior ECOMOG force. Now, that 
would have entailed bringing in new troops and would have 
involved a higher cost. That is something that the United 
States and the other members of the Security Council should 
have faced at the front end. It just seemed easier to rehat the 
ECOMOG force and the Nigerians, I think, without adequate 
consideration of what that did to the political balance and 
political perceptions within Sierra Leone, and that, I think, 
in turn caused some of the problems.
    I don't think you can move from peace enforcement back to 
peacekeeping to peace enforcement, whatever flag is flying over 
the troops. I think once a force loses its neutrality, it 
cannot get it back.
    So the question about the use of the Nigerians seems to me 
to precede who ought to be in command. I think bringing in an 
outsider was probably a good thing to show that the new U.N. 
force was not simply going to be nothing but a follow-on to the 
original ECOMOG force.
    Mr. Bereuter. Mr. Luck wants to respond to your question, 
too, and perhaps Ambassador Jett.
    Mr. Luck. If I could just respond quickly. It is a judgment 
call, but I would see the situation a bit differently than 
John. I think Sierra Leone was not a place for peacekeeping; it 
was a place for peace enforcement. People are afraid to use 
that term anymore partly because of the resistance in this town 
to anything that says ``enforcement'' in it. It was a place to 
take sides. There were bad guys and good guys. There were an 
elected government and others who were committing the most 
incredible atrocities one can imagine.
    And, yes, when the Nigerian forces were there as part of 
ECOMOG, they did commit some violations here and there. That, 
unfortunately, comes with the territory. It wasn't a place 
where you send in disinterested peacekeepers from far away, 
because, quite frankly, when things get nasty, countries have 
to have an interest to stay. The disinterested stay home, or 
they do not fight effectively.
    And, in fact, the two Sierra Leone resolutions were in part 
or in whole taken under Chapter 7, the enforcement part of the 
Charter. And I think the problem was that it was implemented as 
if it was peacekeeping. So I think I would have seen that a bit 
differently.
    Mr. Bereuter. Ambassador Jett?
    Mr. Jett. Just a comment. I think John and Ed are both 
correct, but the idea of replacing the Nigerians with somebody 
else begs the question: Who? There did not seem to be anybody 
willing to step up to the plate and play that role, and you are 
left just as the Lome accord was the only deal possible because 
nobody wanted to impose peace, as Ed suggested. The Nigerians 
are basically there because nobody else wants to do it, and 
they have a long history of corruption. The best news that has 
happened for democracy in Africa has been the election of 
President Obasanjo, but he can't change the culture of his 
military or his country overnight. And ECOMOG was known as 
``every car or movable object gone'' because they spent most of 
their time looting.
    I might note that when the British sent in troops, to Mr. 
Delahunt's question, they had 400 troops in Sierra Leone in the 
beginning to stabilize things and did it very quickly with very 
few casualties. I think a first-rate army with a relatively few 
number of troops and casualties can stabilize these situations. 
That also begs the question of how do you get out? What is your 
exit strategy, because you might be there for a long time.
    Mr. Bereuter. I need to adjourn. I thank the panel for 
their excellent testimony, oral and written, and to my 
colleagues for their questions. I know we could go on. The 
gentlewoman from Florida, I am going to have to turn the chair 
over if the gentlewoman would take her questions from here.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman. I am going to 
look at their written statements. I have not had a chance to 
review them yet.
    Mr. Bereuter. I do not want to cut the gentlewoman off if 
she has questions.
    Ms. Ros-Lehtinen. I will check back.
    Mr. Bereuter. Mr. Delahunt.
    Mr. Delahunt. If the gentlewoman will take the chair for a 
moment, I just have one question.
    Mr. Bereuter. And as I leave, I would like to mention--
address the point Mr. Luck brought up, and that is that PDD-25 
has no congressional input. It is not a treaty; this is 
something the Administration has set out. And under article 7 
it would be interesting to see--that is the one labeled 
Congress and the American people trying to build support--
whether or not--if the staff would examine whether or not we 
have had the kind of consultation with the Congress from the 
Administration that they in their own PDD-25 said they would 
conduct. Thank you.
    Mr. Payne. Mr. Delahunt, since the gentlewoman is in the 
chair, would you yield for a second?
    Ms. Ros-Lehtinen. [Presiding.] Mr. Delahunt is recognized.
    Mr. Delahunt. I yield to my friend from New Jersey.
    Mr. Payne. Did Mr. Bolton want to respond?
    Mr. Bolton. I just wanted to make one point about the Lome 
agreement, to disagree with what Ed said about sending in the 
peace enforcement force from the U.N. The Lome agreement agreed 
to by all the parties made Foday Sanko Vice President of Sierra 
Leone and put him in charge of natural resources, including the 
diamonds.
    Now, you can say that the Lome agreement was flawed and 
that that is the wrong thing to do, although our government 
supported it, but I understand why there is an adage that says 
you can't make peace unless you include the people who are 
causing the war.
    So the whole idea of the Lome agreement was an effort at 
national reconciliation. Maybe they never should have agreed to 
it, and that goes to the point I made earlier that the Security 
Council, before agreeing to any deployment, should have said: 
Do we have a real agreement here? And I think the subsequent 
events proved that we did not. But what the parties thought 
they were doing was classic peacekeeping.
    Mr. Payne. And I couldn't agree more. That was a 
peacemaking operation. The same way in Liberia, the Nigerians 
were there to make peace, not to keep peace. There was no peace 
there, and had the Nigerians not been there, there would never 
have been an election. And the election turns out looks like 
the bad guy won, but it was the Nigerians making peace in order 
to have the elections.
    And, secondly, in Sierra Leone there is no question about 
the fact that they were peacemakers. If it wasn't for the 
Nigerians there trying to make peace, the Kabbah government had 
no military at all, and it was the Nigerian military that kept 
the RUF from just consuming the whole country and taking it 
over. And it definitely was a flawed peace plan, as I conclude, 
but at the time there was no other solution. Nigerians were 
talking about leaving because they had--you know, both 
Presidents ran on ``bringing the boys home,'' so to speak, in 
their Presidential election. They both agreed that they want to 
bring the Nigerians home. Now they have agreed that they would 
go back.
    But that was a political position, and so there wasn't very 
much--if the Nigerians left being as strong as they were at the 
time, then they would have consumed the whole country. And so 
in hindsight there is a lot of criticism about the Lome 
accords, but at the time they had to stop the RUF some way. 
They couldn't do it militarily. They tried to come up with the 
accord. They broke it. Now I think peacemakers should go back 
in and make the peace and then scrap the Lome accords and start 
with a whole new system. Thank you very much.
    Ms. Ros-Lehtinen. Mr. Delahunt.
    Mr. Delahunt. I would like to just listen or hear your 
thoughts on the concept of nation-building. Obviously, at least 
it is obvious to me, that there are situations such as East 
Timor where there is a need for nation-building, and yet the 
idea does not have much currency here. It immediately evokes a 
negative response. Yet we have done that in the past. I can't 
think of an example where, you know, security, military 
presence has not been required in terms of nation-building.
    In the aftermath of the Second World War, I am thinking of 
Japan right now, and that might not be an appropriate analogy. 
I think it was Mr. Bolton that talked about the lack of 
capacity of the United Nations in terms of providing an 
appropriate trusteeship. Well, where those situations cry for 
nation-building, where is that initiative, where is that 
effort, where does the mechanism exist for that responsibility 
to be posited? Mr. Luck?
    Mr. Luck. If I could comment briefly, I am sure that John 
or Ambassador Jett may have comments on my comments.
    But if one thinks of nation-building as something that we 
do for other countries, I would agree that is probably not a 
doable proposition. But if it is a question of the 
international community providing some sense of stability, then 
I think you are right; some sense of security, providing some 
of the tools, providing encouragement, providing incentives, 
then I think, in fact, we can assist and have assisted quite 
successfully in a number of cases of peace-building. I would 
point to Namibia as one case in point, Mozambique being 
another, El Salvador, Cambodia, which is a mixed case, but at 
least much better than the ``killing fields.''
    And if you go back--though it is often said that this is 
brand new, the U.N. has never done this before, never 
intervened in internal conflicts before--I would remind people 
that the largest U.N. peacekeeping operation was in the Congo 
in the 1960's. It was a rough one and had lots of enforcement 
aspects to it. Maybe in a sense the results did not last 
forever, but they did give stability and installed someone at 
least the West liked, our country liked, for a number of years. 
It controlled the security situation, it controlled the 
government and really ran the Congo in those early days.
    So I think it can be done and has been done, and the main 
question in terms of who does it best, I think, is who has 
political legitimacy on the ground, who is accepted by the 
people. And largely, if one nation state intervenes, it is not 
in a position to achieve that. It involves an obviously 
postcolonial kind of mentality. It may be, as John suggested, 
that the EU would do a better job than the U.N. in Kosovo. I am 
not sure that is true. I think it is awkward to have the 
military side run by one organization and the civilian side run 
by another organization. That certainly is very awkward.
    But it seems to me that the U.N. has done at least a 
respectable job in Kosovo under extremely difficult 
circumstances, and we will see in a few years whether, in fact, 
it produces a sensible result.
    Mr. Jett. Well, I think it is a good question, Mr. 
Delahunt. I don't know the responsibility can lie besides the 
U.N. in most cases. There may be a regional organization, like 
John suggests, in Europe, but I think Europe is sort of 
organization-rich. There is an alphabet soup of organizations 
in Europe all looking to justify their existence, including 
NATO, and so they are willing to take these tasks on.
    But that is not true in most of the rest of the world. And 
basically nation-building is looked at with some disdain 
because it is hard to do. How long does it take to construct an 
institution? But I think the U.N. has to do it in these cases. 
You cannot ignore them. And I would say that U.N. can do much 
more, particularly when, like in the case of Mozambique, 
essentially they walked away from Mozambique after the 
elections. And there are a lot of imperfect institutions. I am 
not sure how long the peace will last in Mozambique if they do 
not stop having elections where the outcome is rigged by the 
ruling party that has been ruling every since independence.
    So I think it is something--I don't think the U.N. does 
anything particularly effectively, but if there is nobody else, 
the U.N. has to do it.
    Mr. Bolton. I don't think the U.N. has ever done this 
before. In other cases like Namibia, the U.N. supervised an 
election, and then it left. In the case of El Salvador and 
Nicaragua, it oversaw elections, had some minimal role after 
that, but basically in both Nicaragua and El Salvador, the 
people tried to put aside their differences and put a 
government back together again.
    I do not want to disguise this. I think in part this 
depends on your philosophy of government. I don't believe that 
the Government of the United States can do nation-building in 
this country very effectively. I think we are engaged in a 220-
plus-year effort of our own in nation-building exercise, and we 
are far from complete.
    Mr. Delahunt. Maybe they should call it nation-nurturing or 
the nurturing of democratic institutions. I think we all become 
the captive of these labels that for different reasons have 
different implications for different folks.
    Mr. Bolton. Let's just call it the ``X factor'' for a 
minute. In East Timor the people who are going to accomplish 
the X factor are the East Timorese, and I think it is 
patronizing to assume they can't do it.
    Mr. Delahunt. As you said earlier, each of these situations 
have different attendant circumstances and conditions. And, of 
course, there is a point in time when there should be a phasing 
down or a winding down, and these nations have to evolve on 
their own, given their culture, their philosophy of government.
    But you know, I think just to say it can't be done, I 
think, opens us to potential instability all over the planet, 
which I dare say is vital in terms of our national interests to 
see that from not occurring, that from not happening.
    Mr. Bolton. May I just follow up on one small point there 
that I quoted earlier. Let me just read it again. These are not 
my words. This is what the Secretary General said about what is 
going on in East Timor. And referring to the difficulties that 
the U.N. faces, and he says, and I quote, ``The organization 
has never before attempted to build and manage a state.''
    Now, it is my contention that it is neither the function 
nor within the competence of the United Nations to build and 
manage a state. It is not within the competence or the 
authority of the United Nations. I think the people who are 
going to build and manage the new state of East Timor are the 
East Timorese----
    Mr. Delahunt. Let me interrupt you. You made that quote, 
and I have no reason to disagree with its accuracy. But at the 
same time my interpretation is that the context there is much 
larger in terms of an incremental, early-on investment of 
resources, assistance, guidance, for lack of better terms, and 
as some institutions, some of the infrastructure take hold, a 
withdrawal. Ambassador Jett is right, we do not want to talk 
about it because it is tough. Maybe it is impossible. I don't 
know. But if you do not give it a try, I think the alternative 
carries with it a much higher risk.
    Mr. Luck?
    Mr. Luck. I would just say that I suppose what the 
Secretary General was referring to, in saying that this is so 
new, is that this really a case of self-determination, where 
there was no nation, there was no identity, there was no 
governance whatsoever by the local people. And that is very 
tough, and in a sense that is what one might or might not face 
in Kosovo, but I think, as John pointed out rightly earlier, it 
is very uncertain which way this is going to go.
    But clearly most of the cases that we have talked about, 
Mozambique, El Salvador, Cambodia, are places where there was, 
in fact, a sovereign government, there was some kind of 
internal disturbance, and things needed to be solved. I think 
the Namibia case was a little bit closer. I would say it was 
more than what John suggested, but there was a case of moving 
from a colonial situation to a postcolonial situation. But in 
that sense East Timor is special. But some of these are rather 
different; in that case not just nation-building, but creating 
any sense of a nation and having it accepted as a sovereign 
state.
    Ms. Ros-Lehtinen. Thank you. And following up on Mr. 
Delahunt's questions related to the missions and the competence 
of our U.N. peacekeeping missions, do you think that we should 
try to move our U.N. peacekeeping efforts back to an earlier 
period when it monitored cease-fires, it kept opposing armies 
apart until a permanent peace could be established? And that is 
what we have been talking about, whether that is time to get 
back to the basics and let that be really the policy blueprint 
for the U.N. peacekeeping missions.
    Mr. Luck?
    Mr. Luck. Well, I would say that, while it would be very 
attractive to be able to follow that option, it is really 
saying let's go back to the old-Cold War days when things were 
defined in a very different way. Unfortunately, most of the 
security challenges that we are facing are not of that nature. 
And, yes, occasionally there is an Iran and Iraq, or there is 
an Iraq and Kuwait, or an Ethiopia and Eritrea, and then, yes, 
we can go back to traditional peacekeeping.
    Mr. Luck. To me, what the problem is, and I think this is a 
problem in the Brahimi report as well, and John suggested this 
earlier as a problem with PDD-25, is fuzzing traditional 
peacekeeping roles with some kind of enforcement role. I think 
most of these situations what we are seeing are really not 
truly intrastate conflicts. We are seeing some kind of trans-
national conflict, where the resources and the forces and the 
refugees and the populations travel back and forth across 
borders that are very poorly defined. And most of those require 
some real use of force to create a secure environment. It would 
be nice simply to say let us do the easy ones. Let us only go 
back to cases where the U.N. would only be doing traditional 
peacekeeping. But then the question comes, who is going to 
handle all the rest of the situations? And these are the really 
dangerous ones. Someone will have to do it or else I think we 
will have a great deal of chaos in many parts of the world.
    Ms. Ros-Lehtinen. In following up on the PDD-25 reference, 
how can we improve the consultation process between Congress 
and the executive branch, and what comments do you have about 
the ongoing efforts on the GAO to investigate this presidential 
decision directive 25?
    Mr. Bolton. I think there is a fundamental problem between 
Congress and the executive at this point because the--precisely 
because PDD-25 is so unclear and so vague. And it permits so 
many different kinds of U.N. operations under the broad and 
elastic language that it contains. But I think there is also a 
question of disagreement over what legitimate role the U.N. can 
play. There I do disagree with Ed Luck in where the U.N. has 
utility. I think the U.N. has a role, but I think it is a 
limited role. And I think it is useful in relatively small 
number of conflicts. Ethiopia, Eritrea today we have discussed 
seems to me to be a classic place where the U.N. can play a 
role. In Sierra Leone, I think it is almost inevitably not 
going to succeed. And if the question is what other options are 
there, I think you are hindering the development of thinking on 
that if you reflexively use the United Nations. So part of this 
is a disagreement between the executive branch and Congress 
over what the role of the U.N. is. I wish we could have a more 
straightforward debate about that and have the Administration 
here and go at it. I think that is the way you move these 
debates forward.
    Mr. Jett. I would just add again that the only options I 
see here is the U.S. participates, the U.S. lets the U.N do it 
without United States participation, or we do nothing. 
Unfortunately, the Eritrea/Ethiopia conflict where classical 
peacekeeping is possible is the rare exception today. It is a 
civil war that is today's typical conflict and those are much 
more messy situations. Would we really stand by and let Rwanda 
happen again in a place like Burundi or somewhere else. I 
suspect that actually we might because we haven't gotten very 
far in the discussion about what we would do in such a 
situation, and I hope this hearing pushes that discussion a 
little further forward.
    Ms. Ros-Lehtinen. Mr. Luck.
    Mr. Luck. Just to comment briefly on the question about 
PDD-25 and congressional-executive relations, I agree with John 
that there is a general problem on foreign policy, and I would 
guess on domestic policy as well, between the executive branch 
and Congress these days. I don't recall, going back 10, 20 
years, that on peacekeeping and other things having to do with 
the U.N., there was this very intense partisanship and mistrust 
on both sides. And I think that very often the U.N. is used as 
a way of getting after the Administration or vice versa. I 
think a lot of it has to do with money and the prerogatives of 
Congress over finance.
    And I understand why Congress does not like being presented 
with bills and told oh, we have already signed off on this in 
New York. I think a much better and much earlier form of 
consultation needs to be worked out. And I hope after the 
elections and after we get to a new Administration and a new 
Congress, this can be looked at again because viewed from New 
York and viewed from other member states, the U.S., for all of 
its unprecedented power in the world, seems totally unable to 
deliver on our power and our promise because of this kind of 
blockage, which comes up again and again and again.
    We will see what the dynamics and what the relationships 
are come January. But I hope we can start anew, because 
otherwise I think we will look like a rather pathetic giant up 
in New York.
    Thank you.
    Ms. Ros-Lehtinen. Thank you so much. Thank you, gentlemen, 
and I thank the visitors for being here with us. The Committee 
is now adjourned.
    [Whereupon, at 12:10 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Prepared Statement of Hon. Benjamin A. Gilman, a Representative in 
      Congress from the State of New York, Chairman, Committee on 
                        International Relations

    I am very pleased to welcome our witnesses this morning to this 
long-delayed hearing on a ``Review of the Administration's Peacekeeping 
Policy Blueprint'' and how the Administration has applied its policy 
blueprint for four key UN peacekeeping operations.
    We were briefed last week on the long-delayed investigation by the 
General Accounting Office into the Presidential Decision Directive 
Number 25--the process whereby the U.S. approves U.N. and other 
multilateral Peace Operations and provides timely and relevant 
information to Congress concerning their implementation.
    This report was requested late last year by this Committee on a 
bipartisan basis and follows a number of similar GAO reports on 
peacekeeping-related topics conducted over the past several years on a 
timely basis and with the cooperation of the Administration.
    Today, U.N. peacekeeping is facing very difficult challenges on the 
ground--The decision by the Indian Government to pull its peacekeepers 
might well lead to a breakdown of UN peacekeeping efforts in Sierra 
Leone, the Government of the Democratic Republic of the Congo has 
refused to cooperate with the UN in the deployment of a peacekeeping 
force in that country, as there are continuing obstacles from the 
Indonesian military and police forces in the ongoing mission in East 
Timor. These developments in turn raise key questions about the process 
on how the U. S. approves and supports these missions.
    Today we still have many questions about the process whereby the 
Clinton Administration approved these missions. Unfortunately, we got 
few satisfactory responses from the GAO on how the Administration has 
applied its own policy blueprint to the missions now on the ground in 
Africa, Asia and Europe.
    This project was requested on a bipartisan basis with the Ranking 
Member Mr. Gejdenson. The GAO reported to us that it lacks full and 
independent access to agency records needed to complete its work. 
Furthermore, it has no access to key documents that would show whether 
this peacekeeping policy blueprint was fully taken into account when 
deciding to support some peacekeeping operations. With no independent 
access to records, the GAO feels that the integrity and reliability of 
its work has been compromised.
    The GAO investigators have produced an extensive summary of their 
requests to the Administration, many of which were ignored or denied on 
very dubious grounds. The summary, which I will make available at 
today's hearing fully documents the stone-walling and delaying tactics 
from State department officials that has seemed to characterize this 
entire investigation into the process by which we review and approve 
multilateral peace operations, including U.N. Peace Operations.
    While the work of the GAO in this area is not yet complete, it is 
becoming clear that the Administration has yet to take a cooperative 
attitude toward the completion of this peacekeeping review by the GAO 
investigators.
    In short, there is a concern that Congress is being shortchanged in 
the quality, quantity and timeliness of the information we require to 
make our own decisions concerning these missions.
    In short, we are still in need of timely and complete cooperation 
from the Administration on this pending review by the GAO of how these 
operations are approved and conducted. And most disappointing of all is 
the failure of the State Department to make available to the Committee 
the two witnesses we had requested. Undersecretary Thomas Pickering and 
Deputy Legal Adviser James Thessin are evidently not going to join us 
and discuss how the department is handling policy and process questions 
related to this GAO investigation.
    I will, however, ask for their cooperation in providing answers 
within 48 hours to questions related to this ongoing GAO investigation.
    Today, we are very fortunate to have with us an outstanding private 
sector panel to review the peacekeeping policy issues before the 
Committee today. The panel includes the Honorable John R. Bolton, 
Senior Vice President of the American Enterprise Institute and former 
Assistant Secretary of State for International Organizations, 
Ambassador David Jett, Dean of the International Center at the 
University of Florida and former Ambassador to Mozambique and Peru and 
Mr. Edward C. Luck, Executive Director of the Center for the Study of 
International Organization.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

</pre></body></html>
